W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1348

True Harmony, et al.

California Department of Justice et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
The Department of Justice and the Attorney General of the State of California

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Benjamin Glickman

Date:

3/30/21

Digitally signed by Benjamin Glickman
Date: 2021.03.30 16:10:58 -07'00'

(Type or print) Name Benjamin M. Glickman
Mr.

Ms.

Firm

Attorney General's Office

Address

1300 I Street, 17th Floor

City & State

Sacramento, California

Phone

916-210-6054

Mrs.

Miss

Zip 95814
Email

Benjamin.Glickman@doj.ca.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Jeffrey Thomas, Petitioner

